Audit Report




OIG-12-052

INFORMATION TECHNOLOGY: Financial Management Service
Successfully Demonstrated Recovery Capability for Treasury
Web Application Infrastructure
May 11, 2012




Office of
Inspector General
Department of the Treasury
Contents

Audit Report

Results in Brief ..............................................................................................       1

Background .................................................................................................          2

Findings and Recommendations .......................................................................                  4

        GWA and SAM Did Not Fully Complete Reconstitution Test Objectives .......                                     4
        Recommendation ..................................................................................             5

        TWAI Documentation Could Be Improved ................................................                         6
        Recommendation ..................................................................................             7

Appendices

    Appendix     1:       Objectives, Scope, and Methodology ....................................                    9
    Appendix     2:       Management Response .......................................................               10
    Appendix     3:       Major Contributors to This Report .........................................               12
    Appendix     4:       Report Distribution ..............................................................        13

Abbreviations

    DRE                   Disaster Recovery Exercise
    EROC                  East Rutherford Operations Center
    FRB                   Federal Reserve Bank
    FMS                   Financial Management Service
    GWA                   Government-wide Accounting
    ITS                   International Treasury Services
    NIST                  National Institute of Standards and Technology
    OIG                   Office of Inspector General
    SAM                   Shared Accounting Module
    SRDF                  Symmetrix Remote Data Facility
    TD P                  Treasury Directive Publication
    TWAI                  Treasury Web Application Infrastructure




                          Financial Management Service Successfully Demonstrated Recovery Capability              Page i
                          for Treasury Web Application Infrastructure (OIG-12-052)
         This Page Intentionally Left Blank




Financial Management Service Successfully Demonstrated Recovery Capability   Page ii
for Treasury Web Application Infrastructure (OIG-12-052)
                                                                                        Audit
OIG
The Department of the Treasury
                                                                                        Report
Office of Inspector General

                      May 11, 2012


                      David A. Lebryk
                      Commissioner
                      Financial Management Service

                      The overall objective of this audit was to determine if the Financial
                      Management Service (FMS) could successfully demonstrate its
                      disaster recovery capability for the Treasury Web Application
                      Infrastructure (TWAI).

                      To accomplish our objective, we reviewed planning documentation
                      for the disaster recovery exercise (DRE), observed the exercise held
                      at the Federal Reserve Bank (FRB) of Dallas on February 12, 2011,
                      performed a limited security assessment of the facility while on
                      site, and reviewed the DRE results report afterward.

                      We performed our fieldwork in the Washington, DC, metropolitan
                      area and Dallas, Texas, from January 2011 through March 2012.
                      The audit was conducted in accordance with generally accepted
                      government auditing standards. Our objectives, scope, and
                      methodology are described in more detail in appendix 1.

Results in Brief
                      We found that FMS successfully demonstrated its disaster recovery
                      capability for TWAI. However, we found that two TWAI
                      applications, Government-Wide Accounting 1 (GWA) and Shared
                      Accounting Module 2 (SAM), did not complete 1 of 3 DRE
                      reconstitution test objectives. Additionally, we found that TWAI
                      documentation could be improved to include information required
                      by the National Institute of Standards and Technology (NIST) and
                      the Department. We are making two recommendations to the
                      Commissioner of FMS to address these findings.

1
  GWA uses web technology to simplify the reporting and reconciliation processes of Federal agencies.
2
  SAM is a central repository for accounting business rules. These rules are used to validate data it
receives from other programs and sends reports to GWA.

                      Financial Management Service Successfully Demonstrated Recovery Capability   Page 1
                      for Treasury Web Application Infrastructure (OIG-12-052)
             In a written response to a draft copy of this report, the
             Commissioner agreed with our findings and recommendations and
             provided plans for corrective actions (see appendix 2). With respect
             to GWA and SAM not completing 1 of 3 DRE reconstitution test
             objectives, FMS officials told us that the original issue has been
             fixed with the implementation of the latest software release on
             April 14, 2012. With regard to TWAI documentation needing
             improvement to include NIST and the Department’s requirements,
             FMS management stated that they developed and issued an FMS
             TWAI Contingency Plan template and Contingency Plan Test
             Results template in the NIST suggested format in November 2011
             and October 2011, respectively.

             FMS’s corrective actions, if implemented as described, meet the
             intent of our recommendations.

Background
             FMS provides central payment services to federal program
             agencies, operates the federal government's collections and
             deposit systems, and oversees a daily cash flow of $89 billion.
             FMS maintains multiple financial and information systems to help it
             process and reconcile monies disbursed and collected by
             government agencies. One such system is TWAI, a secure
             application infrastructure with internet and dedicated
             telecommunications connectivity. FMS has 14 computer
             applications that rely on TWAI for common infrastructure services.
             Eight of those applications are hosted in the FRB facility in East
             Rutherford, New Jersey known as the East Rutherford Operations
             Center (EROC), and six are hosted in the FRB facility in Dallas,
             Texas. The eight applications hosted in EROC use Dallas as their
             alternate processing site in the event of a disaster, and those
             hosted in Dallas use EROC as their alternate processing site.

             On February 12, 2011, FMS ran a DRE to verify that the eight
             TWAI applications hosted in EROC could be recovered to perform
             their functions at the alternate processing site in Dallas, and then
             return to their primary site.




             Financial Management Service Successfully Demonstrated Recovery Capability   Page 2
             for Treasury Web Application Infrastructure (OIG-12-052)
The eight TWAI applications tested as part of this DRE were:

•   Cash Track Web – This application supports several cash
    management activities for Treasury.

•   GWA – This application uses web technology to simplify the
    reporting and reconciliation processes of federal agencies.

•   Intra-Governmental Payment and Collections – This application
    provides a standard interagency fund transfer mechanism for
    federal program agencies.

•   Internet Payment Platform – This application provides a
    centralized electronic invoicing and payment information portal
    to agencies, payment recipients, and FMS.

•   International Treasury Services (ITS) – This application is a
    portal for government international payments and collections.

•   SAM – This is application is a central repository for accounting
    business rules, used to classify and validate data provided by
    feeder systems and report to GWA.

•   Treasury General Account Deposit Reporting Network – This
    application allows agency personnel to prepare electronic
    deposit reports and provides financial institutions and FRBs with
    the ability to confirm deposits, create adjustments, and submit
    confirmed deposits and adjustments.

•   Treasury Tax and Loan Plus – This application provides financial
    institutions and federal agencies with the ability to download
    forms and reports, enter federal tax deposits, make changes to
    existing financial information, upload files, and receive
    messages.

Each application team has its own contingency plan to follow in the
event of a disaster. After recovering to the alternate site in
response to a disaster, applications reconstitute at their primary
site to resume normal operations. Part of each application’s
contingency plan test was a reconstitution phase consisting of
three objectives: (1) Symmetrix Remote Data Facility (SRDF) to

Financial Management Service Successfully Demonstrated Recovery Capability   Page 3
for Treasury Web Application Infrastructure (OIG-12-052)
                      Primary, (2) Sorry Page Reconstitution, and (3) EROC Primary
                      Application. The three objectives were not dependent on one
                      another for their individual success. The goal of the “SRDF to
                      Primary” objective was to replicate data from the contingency site
                      to the primary site. The “Sorry Page Reconstitution” objective was
                      to ensure that users are redirected to a “sorry page” if the
                      application is unavailable. Lastly, the objective of “EROC Primary
                      Application” was to verify that the application was working
                      correctly at EROC, the primary processing site.

                      We reviewed the Information Technology Contingency Plans 3 for
                      each of the eight applications being tested, as well as the TWAI
                      Information Technology Contingency Plan for completeness. Each
                      contingency plan we reviewed contained information on recovering
                      its particular information system’s operation from EROC to Dallas.
                      We also reviewed the DRE results report, “East Rutherford
                      Operations Center to Dallas Disaster Recovery Exercise Results”
                      (March 2011). The results report contained a narrative description
                      of the DRE, metrics describing how long each application took to
                      achieve particular goals, action items, and lessons learned.

Findings and Recommendations
Finding 1             GWA and SAM Did Not Fully Complete Reconstitution Test
                      Objectives

                      Although FMS successfully demonstrated its disaster recovery
                      capability for TWAI, we found that GWA and SAM did not
                      complete 1 of 3 DRE reconstitution test objectives. Specifically, the
                      “SRDF to Primary” test objective was aborted for GWA and SAM
                      during the exercise. The goal of the “SRDF to Primary” objective
                      was to replicate data from the alternate processing site in Dallas to
                      the primary site in EROC. For GWA and SAM, part of this objective
                      was to transfer a file from GWA to SAM. The file transfer was
                      unsuccessful. During the DRE, FMS management was unable to
                      determine the cause of the file transfer error. Therefore, FMS
                      management made a risk-based decision to abort the test objective


3
  A contingency plan for an information system provides established procedures for the assessment and
recovery of a system following a disruption.

                      Financial Management Service Successfully Demonstrated Recovery Capability   Page 4
                      for Treasury Web Application Infrastructure (OIG-12-052)
                    and open a trouble ticket to investigate the error after the DRE
                    ended.

                    According to the “TWAI East Rutherford Operations Center to
                    Dallas Contingency Disaster Recovery Exercise Objectives”
                    (January 25, 2011), “Recovery/Reconstitution” is the
                    reconstitution method for both GWA and SAM. This means that for
                    GWA and SAM to be considered fully successful in meeting their
                    DRE objectives, each application must complete data replication
                    from the alternate processing site to the primary site.

                    FMS management ultimately attributed the cause for the file
                    transfer error to an improperly formatted database command. At
                    the time of the DRE, the cause of the file transfer error was not
                    apparent. After the DRE, an FMS investigation found the database
                    command that was entered at the primary site was missing a pair
                    of quote marks, 4 resulting in the file transfer error. The only data
                    validation procedure in place at the time was to have a second
                    person review the input. When the data was entered, neither the
                    operator nor the reviewer caught the missing quote marks.

                    As a result, the incorrectly formatted data caused an error with
                    two applications, GWA and SAM, which prompted FMS
                    management to abort the objective. If the file transfer had
                    succeeded, GWA and SAM would have successfully reconstituted
                    in EROC and met the “SRDF to Primary” test objective. In a real
                    disaster, this error would have delayed reconstitution in the primary
                    processing site while the problem was investigated and fixed.

                    Recommendation

                    We recommend that the Commissioner of FMS, in a timely manner,
                    identify a solution to remedy the cause of the file transfer error
                    identified by FMS’s investigation for GWA and SAM, and test and
                    implement that solution.




4
 The command entered was “SET AGNCY_ID=072”, and it should have been
“SET AGNCY_ID=’072’”.

                    Financial Management Service Successfully Demonstrated Recovery Capability   Page 5
                    for Treasury Web Application Infrastructure (OIG-12-052)
                       Management Response

                       FMS officials stated that the original issue has been fixed with the
                       implementation of the latest software release on April 14, 2012.

                       OIG Comment

                       Management’s corrective action, if implemented as described,
                       meets the intent of our recommendation.

Finding 2              TWAI Documentation Could Be Improved

                       Based on our review of the DRE documents, we found that the
                       TWAI documentation could be improved. Specifically, we found
                       that the TWAI and ITS contingency plans, and the DRE results
                       report were missing information required by NIST and the
                       Department. For example, we found that the TWAI contingency
                       plan did not have information on potential accessibility problems to
                       the alternate processing site in the event of an area-wide disruption
                       or disaster. Additionally, the ITS contingency plan did not include
                       metrics to measure recovery objectives. Also, the ITS contingency
                       plan did not make the purpose of the changes clear in its change
                       log. Finally, the DRE results report did not include a testing point of
                       contact and did not include a description of the DRE including
                       expected and actual results. These elements are required by NIST
                       Special Publication 800-53A 5 and Treasury Directive Publication
                       (TD P) 85-01. 6

                       FMS management stated that NIST Special Publication 800-34,
                       Revision 1, “Contingency Planning Guide for Federal Information
                       Systems” (May 2010), was followed for contingency plans and
                       DRE testing documentation. However, the documentation was not
                       fully compliant with NIST Special Publication 800-53A and
                       TD P 85-01 requirements even though FMS management was
                       aware of them.




5
  NIST Special Publication 800-53A, Revision 1, “Guide for Assessing the Security Controls in Federal
Information Systems and Organizations” (June 2010)
6
  TD P 85-01, Vol. 1, “Treasury Information Technology Security Program” (Nov. 2006)

                       Financial Management Service Successfully Demonstrated Recovery Capability   Page 6
                       for Treasury Web Application Infrastructure (OIG-12-052)
Recommendation

We recommend that the Commissioner of FMS take action to
ensure that all FMS TWAI DRE documentation fully complies with
NIST Special Publication 800-53A and TD P 85-01 requirements.

Management Response

FMS officials stated NIST allows for flexibility in implementing the
guidance in its Special Publications and that FMS has taken the
following corrective actions to ensure their documentation is
consistent with NIST guidance:

•   Developed and issued a required FMS TWAI Contingency Plan
    template for all TWAI applications in November 2011, and
    conducted compliance reviews against the template.

•   Developed and issued a Contingency Plan Test Results template
    in October 2011 to ensure that the format for all contingency
    plan test results is consistent and follows the suggested NIST
    format, and conducted compliance reviews against the
    template.

OIG Comment

Management’s corrective actions, if implemented as described,
meet the intent of our recommendation.




Financial Management Service Successfully Demonstrated Recovery Capability   Page 7
for Treasury Web Application Infrastructure (OIG-12-052)
                                 ******

I would like to extend my appreciation to the Commissioner of FMS
and his staff for the cooperation and courtesies extended to my
staff during the audit. If you have any questions, please contact
me at (202) 927-5171 or Abdirahman Salah, Information
Technology Audit Manager, at (202) 927-5763. Major contributors
to this report are listed in appendix 3.


/s/

Tram Jacquelyn Dang
Director of Information Technology Audits




Financial Management Service Successfully Demonstrated Recovery Capability   Page 8
for Treasury Web Application Infrastructure (OIG-12-052)
Appendix 1
Objectives, Scope, and Methodology




The overall objective of this audit was to determine if the Financial
Management Service (FMS) could successfully demonstrate its
disaster recovery capability for the Treasury Web Application
Infrastructure (TWAI). This audit was included in the Office of
Inspector General Annual Plan for 2011.

To accomplish our objective, we reviewed planning documentation
related to TWAI applications and disaster recovery exercise (DRE)
objectives, observed the DRE exercise held on February 12, 2011
at the Federal Reserve Bank in Dallas, Texas, performed a limited
physical security assessment while on site, including walkthroughs,
personnel interviews, and policy reviews, and reviewed the DRE
results report prepared by FMS in March 2011.

We reviewed the DRE for adherence to applicable criteria including
National Institute of Standards and Technology special publications
and Treasury policies to determine if the disaster recovery had
been successfully demonstrated.

We performed our fieldwork in the Washington, DC, metropolitan
area and Dallas, Texas, from January 2011 through March 2012.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Financial Management Service Successfully Demonstrated Recovery Capability   Page 9
for Treasury Web Application Infrastructure (OIG-12-052)
Appendix 2
Management Response




Financial Management Service Successfully Demonstrated Recovery Capability   Page 10
for Treasury Web Application Infrastructure (OIG-12-052)
Appendix 2
Management Response




Financial Management Service Successfully Demonstrated Recovery Capability   Page 11
for Treasury Web Application Infrastructure (OIG-12-052)
Appendix 3
Major Contributors to This Report




Office of Information Technology (IT) Audits

   Tram J. Dang, Audit Director
   Abdirahman Salah, IT Audit Manager
   Dan Jensen, IT Specialist
   Timothy Cargill, Referencer




Financial Management Service Successfully Demonstrated Recovery Capability   Page 12
for Treasury Web Application Infrastructure (OIG-12-052)
Appendix 4
Report Distribution




Financial Management Service

    Commissioner

Department of the Treasury

    Office of the Chief Information Officer
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
       Group

Office of Management and Budget

    Office of Inspector General Budget Examiner




Financial Management Service Successfully Demonstrated Recovery Capability   Page 13
for Treasury Web Application Infrastructure (OIG-12-052)
